-8195

No.

IN THE
SUPREME COURT OF THE UNITED STATES

i fflfll
CALVIN JAMES REID
(Your Name)

* Wt^IITIONER

vs.
STATE OF MICHIGAN

— RESPONDENT S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
MAY 1 3 2021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

MICHIGAN COURT OF APPEALS
MICHIGAN SUPREME COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CALVIN JAMES REID #25278-076
(Your Name)
P.0. BOX

3725, F.C.I. #1 MEDIUM

(Address)
ADELANTO, CA

92301

(City, State, Zip Code)
NONE
(Phone Number)

QUESTION(S) PRESENTED

WHETHER A 30 YEAR OLD JURISDICTIONAL DEFECT IN STATE
COURT CONVICTION SHOULD STAND UNCORRECTED BECAUSE THE
VIOLATION OCCURRED OVER 30 YEARS AGO?

i

LIST OF PARTIES

$K| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
NONE

ii

TABLE OF AUTHORITES CITED
CASES

PAGE NUMBERS

Burgett y. Texas,
389 U.S 109 (1967)

8

Custis v. United States,
511 U.S. 485 (1994)

8

Douglas v. California,
372 U.S. 353 (1963)

8

Evitts v. Lucey,
8

469 U.S. 387 (1985)
Gideon v. Wainwright,
372 U.S. 335 (1963)

8

Halbert v. Michigan, 545
545 U.S. 605 (2005)

8

Johnson v. Zerbst
304 U.S. 485 (1938)

8

Lackwanna Co. D.A. v. Coss,
532 U.S. 394 (2001)

8

Moore v. Dempsey,
261 U.S. 86 (1923)

8

Townsend v. Burke,
334 U.S. 736 (1948)

8

RULES
MCR 6.500

5

MCR 6.508(D)(3)

9
iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

9

INDEX TO APPENDICES
APPENDIX A

MICHIGAN SUPREME COURT ORDER OF DENIAL

APPENDIX B

MICHIGAN COURT OF APPEALS DENIAL

APPENDIX C

MICHIGANS LOWER COURT DENIAL

APPENDIX D

ORDER DENYING MOTION FOR RECONSIDERATION

APPENDIX E

LETTER FROM LOWER COURT CLERK DATED JANUARY 16, 1989
WITH THE NAME JAMES REID---- PETITIONERS NAME IS
CALVIN REID---- PETITIONER NEVER RECEIVED THIS LETTER
MOTION FOR RELIEF FROM JUDGMENT FILED IN DECEMBER OF
1995.

APPENDIX F
APPENDIX G

APPLICATION FOR LEAVE TO APPEAL FILED WITH THE
MICHIGAN COURT OF APPEALS AND MICHIGAN SUPREME COURT

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
)txi For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_-__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XX is unpublished.
The opinion of the OPINION AND ORDER OF THE LOWER
appears at Appendix ___ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Jpqt is unpublished.
1.

court

JURISDICTION

wimmMMMmMMMi
was

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

XJXJ For cases from state courts:
The date on which the highest state court decided my case was 03/30/2021
A copy of that decision appears at Appendix__A
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------- --- -------------------- , and a copy of the order denying rehearing
appears at Appendix N/A
[ ] An extension of time to file the petition for a writ, of certiorari was granted
N/A
to and including __iL_A
(date) on
(date) in
Application No. ___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

THE SIXTH AMENDMENT OF THE UNITED STATES CONSTITUTION.
THE FOURTEENTH AMENDMENT OF THE UNITED STATES CONSTITUTION.

3

STATEMENT OF THE CASE
On November 2, 1988, Petitioner pled guilty to escape from
prison, (walk away from Correctional Center), with a supplemental
allegation that he at least had one prior felony. He was sentedced
by Roman J. Snow on December 8 1988 to a minimum of 18 months
and a maximum of 7% years of incarceration, commencing at termin­
ation of sentence he was currently serving. (See Appendix D, Judg­
ment of sentence). Petitioner on January 11, 1989, filed a motion
for appointment of counsel, along with an affidavit of indigency,
seeking appointment of counsel to perfect his appeal of right. The
Court record shows that this motion was filed January 16, 1989.
(See Appendix E, Docket Statement). The Court never responded to
petitioner's motions, nor were the motions subject of a judicial
ruling. In December of 1995, because petitioner had not heard from
the court, he filed a motion for relief from judgment and motion
for appointment of counsel. (which went unheard) (See Appendix F)
The motions and pleadings filed in January of 1989 were
never ruled on by the court, nor was the motions and pleadings
filed in December of 1995, subject of a judicial ruling. In January
of 1999, petitioner wrote to Judge H. David Soet explaining his
situation, and Judge Soet responded on January 26, 1999, with a
brief letter explaining that he was not able to take any official
actions in response to private correspondence. (See Appendix G)
In January of 2020, Petitioner filed a motion to expunge his
escape conviction and the court clerk rejected the motion and sent
an application that had to be sent to a Michigan Office in Lansing,
Michigan. Petitioner then sent the clerk of the court a letter
requesting a certified copy of the criminal conviction for escape
so he could pursue the avenue directed by the court clerk. Upon
receiving and reviewing the certified record, petitioner noticed
that all the motions presented to the court were still subject to
a judicial determination, including the December 1995 motion for
relief from judgment, so petitioner decided to file an Amended

4

motion for relief pursuant to MCR 6.500 et., al., requesting that
his escape conviction bevacated and set aside based on the
jurisdictional defect that occurred when the court failed to sub­
ject his motions filed in January of 1989, to a judicial ruling
and appoint counsel so he could have perfected his appeal of right.
The Michigan court of first instance responded to Petitioner\s
Amended motion, 25 years after his initial request, and 31 years
after his request to appeal his conviction and sentence. The
court, without a hearing, or appointment of counsel to investigate
why a judicial determination was never made, the court simply
apologized to the petitioner with a notation stating that some
sort of "oversight or miscommunication" occurred in this matter.
(See Appendix C) (Which oversight is the court referring too?)
NOTABLY: The court failed to address either of petitioner's pro
se filings, the one in 1989 and the one in 1995, neither were
subject of a judicial determination.
After receiving the court\s denial, petitioner drafted a
more detailed motion for reconsideration providing the court with
United States Supreme Court precedent showing them that whether
the sentence has already been served is not the issue, the issue
rest with the jurisdictional defect that occurred and the
conviction is therefore void. (See Appendix D, motion for
reconsideration.) The court denied his motion for reconsideration,
(Appendix D), and petitioner then filed an application for leave
to appeal the lower court *,s decision to the Michigan Court of
Appeals. (See Appendix G) Petitioner listed Six error'(s for appeal
and the Michigan Court of Appeals denied leave to appeal, but for
some unknown reason, the Court of Appeals granted petitioner Vs
motion for waiver of fees to proceed. (Appendix G)
During the process of the appeals, petitioner had been
transfered and all his personal and legal property had either been
lost or misplaced by the Bureau of Prisons. The time frame begins
on September 23, 2020, and petitioner received most of his

5

personal and legal property on or around February 17, 2021. And
because petitioner did not have his legal property, he did not
possess a copy of the filing he submitted to the Michigan Court
of Appeals and when he submitted his application for leave to
appeal to the Michigan Supreme Court, he made the request to use
the same issue's presented in the application he submitted to
the Michigan Court of Appeals. On March 30, 2021, the Michigan
Supreme Court issued an order of denial, but failed to ground
its analysis in any particular provision of the United States
Constitution, or in any of the United States Supreme Court
precedent that was presented to them. (See Appendix A).

Petitioner's post-conviction motion for relief from judgment
had sat pending for over Twenty-Five years without being subject
of a judicial ruling and neither court is able to explain this
lapse. The request for appointment of counsel has sat pending on
the lower courts docket for over Thirty years without being
subject of a judicial ruling and all the Michigan Court Vs have
ignored these facts presented to them and fails to explain why
petitioner'^ motions were not heard and why did it take 25 years
to respond to the motion for relief from judgment.

6

REASONS FOR GRANTING THE PETITION
This is a Constitutionally compelled issue which resulted in
a fundemental miscarriage of justice of firmly established
federal law, and court proceedings against petitioner.
A writ of certiorari grant by this United States Supreme
Court would not alter the decision of the Michigan Court of Appeals
nor the Michigan Supreme Court, but would only affirm that the
federal question must be resolved by this United States Supreme
Court. The federal question is deeply rooted in this Supreme Courts
precedent and the denial from the Michigan court of first instance
raises significant questions about standard of review, and will
serve as precedent in other reviews of other courts decision
making process.
The state court of appeals, and the Michigan Supreme Court,
has failed to ground its analysis of denial in any particular
provision of the Constitution, or in any of the United States
Supreme Court precedent that was placed before them in petitioners
application(s) for leave to appeal. This cause involves legal
principles of major significance to the state of Michigan Vs
jurisprudence and the decision below was in probable conflict with
precedent of the state Vs highest court. Therefore, it is imperative
that this United States Supreme Court Vgrant"

certiorari to

resolve the miscarriage of justice that occurred over " 30 years"
ago, where petitioner still suffers anew from that conviction.
Otherwise, the precedent rendered by this Court in landmark
holdings would be meaningless where petitioner had a

7

Federal United States District Court, Western Division of Tenn­
essee used this invalid conviction to enhance his current federal
term of imprisonment. Petitioner in effect suffers anew from the
deprivation of that right, Sixth Amendment violation, and the
Fourteenth Amendment right of due process and equal protection
clause. The jurisdictional defect shown to the state court should
have been sufficient to excuse the actual prejudice requirement
found in MCR 6.508(D)(3), based on the irregularites that occurred
inthis matter. The decision to ignore the constitutional violations
that were presented to the Michigan Court of Appeals and the
Michigan Supreme Court, has so far departed from the accepted and
usual course of judicial proceedings and sanctioned by the
Michigan',s upper courts, such a departure by the Michigan lower
court, that a call for an exercise of this Court',s supervisory
power is warranted. The importance of this issue not only affects
petitioner, but others in similarly situated cases. The Michigan
Court of Appeals and Michigan Supreme Court has ignored an
important federal question in a way that conflicts with a number
of this United States Supreme Court decisions, continuing the
miscarriage of justice that began over Thirty years ago.
CONCLUSION
Based on the jurisdictional defect and miscarriage of jsutice
that occurred over Thirty years ago and still present today.
The petition for writ of certiorari should be granted.

Respectfully submitted,

9

